           Office Of Inspector General




December 2, 2004

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: Audit Report – Agreed-upon Procedures Report for Federal
         Intragovernmental Transactions (Report Number FT-AR-05-001)

Attached is a copy of the report we provided to the Department of the Treasury’s
Financial Management Service (FMS) and the Government Accountability Office (GAO)
(Project Number 04XD012FT001). We are providing this report for information only and
require no management action.

At the request of FMS, we performed the agreed upon procedures to assist them in the
preparation of, and GAO in the audit of, the consolidated financial statements of the
U.S. Government as of and for the year ended September 30, 2004.

If you have any questions, please contact John E. Cihota, Director, Financial
Statements, or me at (703) 248-2300.




for
John M. Seeba
Assistant Inspector General
 for Audit

Attachments

cc: Lynn Malcolm
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
           Office Of Inspector General




December 2, 2004

FAYE McCREARY
FINANCIAL MANAGEMENT SERVICE, DEPARTMENT OF THE TREASURY

LYNDA DOWNING
GOVERNMENT ACCOUNTABILITY OFFICE

SUBJECT: Agreed-upon Procedures Report for Federal Intragovernmental
                 Transactions

We have performed the procedures described in the attachment, which were agreed to
by the Department of the Treasury’s Financial Management Service (FMS), the
Government Accountability Office (GAO), and the Office of Management and Budget
(OMB) as stated in the FMS Agency Reporting Requirements for the Financial Report of
the United States Government guidance, solely to assist FMS in the preparation of, and
GAO in the audit of the consolidated financial statements of the U.S. Government as of
and for the year ended September 30, 2004. Postal Service management is
responsible for the proper accounting, presentation and reporting of its consolidated
financial statements and reporting of information to FMS.

This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and the Government Auditing Standards, issued by the Comptroller
General of the United States. The sufficiency of these procedures is solely the
responsibility of FMS, GAO, and OMB. Consequently, we make no representations
regarding the sufficiency of the procedures described in the attachment either for the
purpose for which this report has been requested or for any other purpose. The
procedures we performed and our associated findings are presented in the attachment.

We were not engaged to, and did not perform an audit of the matters addressed herein,
the objective of which would be the expression of an opinion on such information.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported to you.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
This report is intended solely for the information and use of the Postal Service, OMB,
FMS, and GAO and is not intended to be, and should not be, used by those who have
not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.

If you have any questions, please contact me at (703) 248-2300.




for
John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Gary Engel
    Lena Lewis
                           AGREED-UPON PROCEDURES

                 Procedure                                      Finding
Evaluated intragovernmental activity and
balances as follows:
1.   Obtained all Closing Package trading       Obtained all data.
     partner data for intragovernmental
     activity/balances supporting the
     Closing Package Reclassified Balance
     Sheet’s Federal Assets and Liabilities
     and related Statement of Income.

2.   Traced the intragovernmental               No differences were found.
     transactions Closing Package trading
     partner data by federal line item totals
     and/or trading partner
     activity/balances to the agency’s
     general ledger and the audited
     financial statements.

3.   Traced trading partner                     No differences were found.
     activities/balances from the
     intragovernmental transactions
     Closing Package trading partner data
     to the agency’s supporting schedules
     (agency fourth quarter
     Intragovernmental Reconciliation and
     Chief Financial Officer
     Representations using Closing
     Package data). For items where
     agency reporting differences existed,
     traced the explanations to supporting
     documentation.
           Procedure (Continued)                                   Finding
4.   Obtained FMS’ Comparative Closing
     Package Explanation of Differences
     Report for intragovernmental
     activities/balances.

     •   Traced the differences between          No inconsistencies were found in
         the agency and its trading partners     amounts or explanations between FMS’
         by reciprocal category/line-item        comparative reports and agency
         from FMS’ comparative reports to        supporting documentation.
         explanations from agency
         supporting documentation.

     •   In the event of nonreporting by         Not applicable.
         trading partners, as indicated in the
         footer section of FMS’ comparative
         reports, identify that the difference
         was due to a nonreporting partner
         and did not proceed further with
         the review of the differences.

5.   Identified and included copies of           No findings or adjustments were
     internal control findings related to        identified.
     intragovernmental activities from the
     financial statements audit. Also,
     identified and reported auditor-
     proposed intragovernmental
     adjustments that were waived by the
     agency, including items cited in the
     management letter.
